No. 20-1505
IN THE

Supreme Court of the United States

d

ZAINAB MERCHANT; SUHAIB ALLABABIDI ; SIDD BIKKANNAVAR ;
AARON GACH ; ISMAIL ABDEL -RASOUL aka ISMA’IL KUSHKUSH ;
DIANE MAYE ZORRI; MOHAMMED AKRAM SHIBLY; MATTHEW WRIGHT,
—v.—

Petitioners,

ALEJANDRO MAYORKAS , SECRETARY OF THE U.S. DEPARTMENT OF
HOMELAND SECURITY, in his official capacity; TROY A. MILLER ,
SENIOR OFFICIAL PERFORMING THE DUTIES OF THE COMMISSIONER
OF U.S. CUSTOMS AND BORDER PROTECTION, in his official capacity;
TAE D. JOHNSON , ACTING DIRECTOR OF U.S. IMMIGRATION AND
CUSTOMS ENFORCEMENT, in his official capacity,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

REPLY BRIEF FOR PETITIONERS
Adam Schwartz
Sophia Cope
Saira Hussain
ELECTRONIC FRONTIER
FOUNDATION
815 Eddy Street
San Francisco, CA 94109
Jessie J. Rossman
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF
MASSACHUSETTS , INC .
211 Congress Street
Boston, MA 02110

Esha Bhandari
Counsel of Record
Hugh Handeyside
Nathan Freed Wessler
Ben Wizner
Hina Shamsi
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
ebhandari@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, N.W.
Washington, D.C. 20005

TABLE OF CONTENTS
INTRODUCTION ....................................................... 1
I.

II.

THIS COURT SHOULD CONSIDER BOTH
THE STANDARD OF SUSPICION REQUIRED
FOR DEVICE SEARCHES AT THE BORDER
AND THE PERMISSIBLE SCOPE OF SUCH
SEARCHES......................................................... 1
A.

The
Fourth
Amendment
Requires
Determining the Standard of Suspicion
Before Assessing the Permissible Scope of
Search ......................................................... 2

B.

The Courts of Appeals Are Split on Both the
Question of What Suspicion Is Required and
What Scope Is Permissible ......................... 4

THIS CASE PROVIDES AN APPROPRIATE
FACTUAL RECORD TO RESOLVE BOTH THE
STANDARD
OF
SUSPICION
AND
PERMISSIBLE SCOPE OF BORDER DEVICE
SEARCHES......................................................... 6
A.

The Record Affords the Court Valuable
Information Upon Which to Assess the
Privacy Interests in Electronic Devices and
the Governmental Interests in Warrantless
Border Device Searches .............................. 7

B.

The Voluntary Changes CBP and ICE Made
to Their Policies While This Case Was
Pending Do Not Resolve the Question
Presented .................................................... 9

CONCLUSION.......................................................... 11

i

TABLE OF AUTHORITIES
CASES
Brigham City v. Stuart,
547 U.S. 398 (2006) ................................................. 3
Davis v. United States,
564 U.S. 229 (2011) ................................................. 8
Florida v. Royer,
460 U.S. 491 (1983) ................................................. 3
Riley v. California,
573 U.S. 373 (2014) ........................................passim
Terry v. Ohio,
392 U.S. 1 (1968) ..................................................... 3
United States v. Cano,
934 F.3d 1002 (9th Cir. 2019) ........................passim
United States v. Cotterman,
709 F.3d 952 (9th Cir. 2013) ................................... 2
United States v. Ramsey,
431 U.S. 606 (1977) ................................................. 7

ii

INTRODUCTION
This case asks what the Fourth Amendment
requires with respect to searches of travelers’
electronic devices at the U.S. border. The government
contends that this Court should decide the question of
the permissible scope of such a search—i.e., whether
it should be limited to digital contraband—without
addressing the predicate question of what standard of
suspicion the Fourth Amendment requires for a
search in the first place. But to so split the question
would be illogical, would fail to resolve a related split
on that question, and would leave lower courts, the
government, and the public guessing how to apply the
Fourth Amendment’s protections in this context. The
Court should grant certiorari to resolve the complete
Fourth Amendment question of what suspicion is
required to search an electronic device at the border
and what the appropriate scope of that search is. The
issues are interrelated, and can and should be
resolved on the basis of the robust factual record
developed in this case.
I.

THIS COURT SHOULD CONSIDER BOTH
THE
STANDARD
OF
SUSPICION
REQUIRED FOR DEVICE SEARCHES AT
THE BORDER AND THE PERMISSIBLE
SCOPE OF SUCH SEARCHES.

The government asks this Court to grant
certiorari in United States v. Cano, 934 F.3d 1002 (9th
Cir. 2019), petition for certiorari pending (filed Jan.
29, 2021), and to hold the petition in this case. U.S.
Br. 11. But doing so makes little sense. A decision on
the permissible scope of a border device search (which
is presented both here and in Cano) turns on the
predicate issue of what level of suspicion and process
1

is required in the first place (which is presented here
but not in Cano). Thus, the Court should grant
certiorari in this case, which presents both
inextricably interrelated issues on a developed record.
And because the courts of appeals are divided on both
the suspicion and scope issues, following the
government’s suggestion would leave unresolved a
conflict among the lower courts on the predicate issue
of what suspicion is required.
A.

The
Fourth
Amendment
Requires
Determining the Standard of Suspicion
Before Assessing the Permissible Scope of
Search.

The question presented in Cano is a limited
one: whether the search of an electronic device at the
border must be limited in scope to a search for digital
contraband. U.S. Br. 7. The government’s petition in
that case simply presumes that warrantless and often
suspicionless searches of electronic devices at the
border are valid, and takes issue only with the Ninth
Circuit’s limitation of the search’s scope. The Ninth
Circuit also operated from that presumption because
of circuit precedent on the required level of suspicion
for border searches of electronic devices that predates
this Court’s decision in Riley v. California, 573 U.S.
373 (2014). See Cano, 934 F.3d at 1007 (citing United
States v. Cotterman, 709 F.3d 952 (9th Cir. 2013) (en
banc)).
But determining whether the Fourth
Amendment requires a warrant or individualized
suspicion for border searches of electronic devices is a
necessary predicate to determining the permissible
scope of the search. Indeed, the issue of whether
border searches of electronic devices must be limited
2

in scope only arises if such searches may be conducted
without a warrant. If a warrant is required, the scope
of the search would be determined by the warrant and
bounded by the requirement of particularity, rather
than by a categorical scope limitation. By contrast,
warrantless searches “must be limited in scope to that
which is justified by the particular purposes served by
the [warrant] exception.” Florida v. Royer, 460 U.S.
491, 500 (1983) (plurality op.); see also Pet. Br. 18–19.
Therefore, to decide the scope question
presented here and in Cano, this Court will first need
to determine whether border searches of electronic
devices require a warrant under the Fourth
Amendment.
Moreover, if the Court rejects a warrant
requirement, it will still need to determine what level
of suspicion is required for such searches, because
that issue will necessarily frame its assessment of the
search’s permissible scope. Even where a warrant is
not required, the scope of a search is determined by
the suspicion or purpose that justifies the search in
the first place. For example, a Terry frisk requires
reasonable suspicion that the person is armed, and
the scope of the search must be limited to a frisk for
weapons. Terry v. Ohio, 392 U.S. 1, 30–31 (1968).
The ultimate touchstone under the Fourth
Amendment is “reasonableness.” Riley, 573 U.S. at
381 (quoting Brigham City v. Stuart, 547 U.S. 398,
403 (2006)). The reasonableness of a category of
searches is determined both by the standard of
suspicion required and the search’s scope. The
appropriate scope of an electronic device search at the
border is therefore inextricably intertwined with the

3

standard of suspicion necessary to justify the search
in the first place.
Accordingly, the Court cannot properly decide
the scope question without deciding what is required
to justify the search in the first place. The Court
should grant certiorari in this case because it permits
the Court to consider all interrelated aspects of this
critical Fourth Amendment question: both the
threshold issue of whether a warrant or
individualized suspicion is required, and what scope
is reasonable.
B.

The Courts of Appeals Are Split on Both
the Question of What Suspicion Is
Required and What Scope Is Permissible.

The government argues that the circuit courts
are insufficiently split on the standard of suspicion
required for border searches of electronic devices. U.S.
Br. 8–9. In fact, the circuit courts are fractured on
whether and when such searches require suspicion,
and if so, under what standard. See Pet. Br. 15–16
(discussing the different rules of the circuit courts
requiring, in some cases, no suspicion, reasonable
suspicion, or a warrant).
The government seeks to explain away the
circuit split on the suspicion standard by contending
that the courts of appeals are divided only on what is
required for “advanced” searches, not “basic” searches.
U.S. Br. 8. But the Fourth Amendment supports no
distinction between “basic” and “advanced” searches,
both of which can reveal more private information
about an individual than the most thorough home
searches. Riley, 573 U.S. at 396–97. Because that
distinction has no foundation in the Fourth
Amendment, it cannot explain away the conflict
4

among the circuits, two of whom require
individualized suspicion for border searches, and two
of whom do not.
The distinction is an artificial one with no
foundation in this Court’s Fourth Amendment
jurisprudence, and which the government has simply
asserted in the policies challenged here. U.S. Br. 2–3.
But the fact that the government has chosen to make
that distinction does not determine the constitutional
analysis. The courts must assess whether the
Constitution permits the policies and practices in
question. This Court in Riley looked at the
reasonableness of warrantless electronic device
searches as a category, without regard to whether they
were “basic” or “advanced” as the government calls
them. Indeed, the searches in that case were manual
(or what the government calls “basic”). Riley, 573 U.S.
at 379–80, 400.
In a “basic” search, a border officer can read the
traveler’s emails, text messages, and documents,
peruse photos, review contacts, and retrieve browsing
history. Pet. App. 214a–17a (¶¶ 64, 67–71, 75). The
officer also can use the device’s own search tools to
efficiently locate content across the device. Pet. App.
216a (¶¶ 70–71). Nothing about a “basic” search
requires it to be cursory or limited in time or scope.
Pet. App. 293a–94a (§ 5.1.3). There is no reason for
this Court to treat “basic” and “advanced” searches as
separate categories for Fourth Amendment purposes
based on the government’s artificial distinction.
Lastly, granting the petition in this case will
avoid the need to take up multiple border search cases
in successive terms. If this Court were to attempt to
address only the question of the permissible scope of

5

border device searches without assessing what
standard of suspicion justifies them in the first place,
it would leave the latter question unresolved. But the
circuit courts are split on both questions. Pet. Br. 15–
16. Resolution of only the scope question presented in
Cano would not only risk deciding a subsequent
question without deciding the prior threshold
question, but would provide no guidance to the lower
courts on how to resolve their conflict on the standard
of suspicion.
By granting this petition, the Court has an
opportunity to decide both halves of the full Fourth
Amendment question, and to provide much needed
guidance to both border officers and the traveling
public. Pet. Br. 11–12.
II.

THIS
CASE
PROVIDES
AN
APPROPRIATE FACTUAL RECORD TO
RESOLVE BOTH THE STANDARD OF
SUSPICION AND PERMISSIBLE SCOPE
OF BORDER DEVICE SEARCHES.

This case presents a robust factual record
important to guiding the Court in its resolution of the
Fourth Amendment issues presented. The record
includes evidence of the substantial privacy interests
travelers have in their electronic devices, the weak or
nonexistent governmental interests in warrantless
border device searches, and the particular privacy
harms suffered by Petitioners themselves. And the
government’s mid-litigation policy changes do not
affect the Court’s ability to consider the question
presented.

6

A.

The Record Affords the Court Valuable
Information Upon Which to Assess the
Privacy Interests in Electronic Devices
and the Governmental Interests in
Warrantless Border Device Searches.

Resolution of the question presented here calls
for the sort of categorical analysis the Court employed
in Riley to determine whether the search-incident-toarrest exception to the Fourth Amendment’s warrant
requirement applied to cell phones. Like the searchincident-to-arrest exception, the border search
exception requires a categorical approach. See United
States v. Ramsey, 431 U.S. 606, 621 (1977) (noting the
similarity between the two warrant exceptions).
Contrary to the government’s contention, U.S. Br. 10,
the record here provides precisely the sort of
information upon which such a categorical assessment
should rest.
In determining whether to apply the border
search exception to a “particular category of effects”
such as electronic devices, the Court must consider
both individual privacy interests and the
government’s legitimate interests. Riley, 573 U.S. at
385–86. And these interests must be considered as a
general matter; otherwise, courts would be required to
decide the Fourth Amendment standard anew for
every search, based on minor variations in how the
search was conducted. The Riley Court did not
determine its Fourth Amendment rule based on the
particular details of the cell phone searches in that
case, such as what information law enforcement
officers viewed on the phones. Rather, the Court
considered the general privacy and governmental
interests implicated by such searches. Id. at 387–91,
393–98 (examining the privacy interests people have
7

in their cell phones without limiting the analysis to
the specific searches at issue, and doing the same for
the government’s interests).
The thorough factual record in this case
specifically addresses the privacy interests that
border searches of electronic devices implicate. Pet.
App. 214a–21a (¶¶ 63–80). This supplements this
Court’s detailed analysis of the privacy interests in
cell phones, Riley, 573 U.S. at 393–98, which is
equally applicable to this case.
The record here also includes extensive facts
related to the government’s asserted purposes in
conducting border searches of electronic devices, as
well as other facts about the prevalence of digital
contraband at the border, and border officers’ ability
to obtain warrants. Pet. App. 221a–47a (¶¶ 81–119).
All of these facts are important to assessing
whether warrantless and suspicionless searches of
electronic devices are reasonable, and what scope of
such searches is permissible. Pet. Br. 26.
By contrast, the record in Cano does not
address the privacy and governmental interests
implicated by border searches of electronic devices as
a categorical matter, and includes information only
about the particular searches at issue there.
While it is not necessary in this injunctive suit
to assess the specifics of past device searches suffered
by Petitioners, as would be required in the context of
the exclusionary rule, see, e.g., Davis v. United States,
564 U.S. 229, 240 (2011), the record here nonetheless
includes important details about the searches that
illustrate their extraordinary invasiveness. For
example, a border officer viewed attorney-client
privileged communications on Petitioner Zainab
8

Merchant’s cell phone, Pet. App. 260a (¶ 142); officers
expended significant resources to extract three thumb
drives of data from Petitioner Matthew Wright’s cell
phone and camera, Pet. App. 110a (¶ 10); and the
government obtained and still retains information
from the Petitioners’ devices, which Petitioners want
expunged, Pet. App. 264a (¶ 150). 1
The record in this case will accordingly enable
the Court to consider the broader context and realworld implications of border searches of electronic
devices. In contrast, Cano involved post-arrest
searches of a single person’s device following a border
crossing. Cano’s facts are not representative of the
experiences of the tens of thousands of travelers
whose devices are searched at the border each year
without a warrant or suspicion, and who are not
accused of any wrongdoing. See Pet. App. 233a–36a
(¶¶ 99–102) (showing a lack of evidence of the
effectiveness of warrantless border device searches in
uncovering criminal conduct).
B.

The Voluntary Changes CBP and ICE
Made to Their Policies While This Case
Was Pending Do Not Resolve the Question
Presented.

Finally, the fact that the government made
modest changes to its policies after Petitioners filed
this suit does not counsel against review here, because
those changes do not affect the question presented.
Indeed, the fact that two Petitioners suffered device
searches even after filing suit, and after the

These records were filed under seal to preserve the remedy of
expungement, which would be mooted by a public filing.
1

9

government modified its policies, only underscores the
continuing need for review and relief.
When Petitioners filed suit in September 2017,
U.S. Customs and Border Protection (CBP) and U.S.
Immigration and Customs Enforcement (ICE) policies
permitted suspicionless border searches of electronic
devices. Four months later, in January 2018, CBP
changed its policy to require “reasonable suspicion of
activity in violation of the laws enforced or
administered by CBP” for “advanced” searches where
there is not a “national security concern.” The policy
continues to permit “basic” searches without
suspicion, however, and imposes no limit on any
searches’ scope. Pet. App. 195a (¶ 9). ICE changed its
policy to require reasonable suspicion for all
“advanced” searches but not for “basic” searches, and
also imposed no scope limitation. Pet. App. 197a
(¶¶ 18–19).
These modifications do not alter, much less
resolve, any of the Fourth Amendment questions
presented here. Petitioners maintain that border
searches of electronic devices, like searches of cell
phones incident to arrest, require a warrant—or at a
minimum, reasonable suspicion, and any warrantless
search must be limited to searching for digital
contraband. The policy changes continue to allow
highly invasive searches of electronic devices with no
warrant, no suspicion, and no limitation on scope.
All Petitioners were subject to intrusive border
device searches without a warrant, individualized
suspicion, or any limit on the searches’ scope. The fact
that two Petitioners also experienced searches of their
devices after filing this case, and after the policies
were modified, again without any requirement of a

10

warrant, individualized suspicion, or any limit on
scope, only underscores the continuing need for
resolution. And discovery on the relevant
governmental interests took place after CBP’s and
ICE’s policy changes. Pet. App. 39a (Dist. Ct. Summ.
J. Op.). The record therefore properly reflects the facts
necessary for this Court to decide the Fourth
Amendment issue.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
Adam Schwartz
Sophia Cope
Saira Hussain
ELECTRONIC FRONTIER
FOUNDATION
815 Eddy Street
San Francisco, CA 94109
Jessie J. Rossman
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF
MASSACHUSETTS, INC.
211 Congress Street
Boston, MA 02110

Date: June 4, 2021
11

Esha Bhandari
Counsel of Record
Hugh Handeyside
Nathan Freed Wessler
Ben Wizner
Hina Shamsi
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street,
18th Floor
New York, NY 10004
(212) 549-2500
ebhandari@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, N.W.
Washington, D.C. 20005

